Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG
Home
Audit
Report - A-09-96-64209
Office of
Audit
Monitoring Representative Payee
Performance: The Accounting Review Process - A-09-96-64209 - 1/6/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
The
Accounting Review Process is Neither Effective Nor Efficient
in Identifying Problems
The
Felony Question Produces Limited Results
The
Accounting Review Process Does Not Address Problems With Titles
on Financial Accounts
CONCLUSION
APPENDICES
A: Copies of Accounting
Forms
B: Detailed Methodology
C: List of Contributors
Back to top
EXECUTIVE
SUMMARY
PURPOSE
This report evaluates the effectiveness and efficiency
of the Social Security Administration`s (SSA) representative
payee accounting review process.
BACKGROUND
The SSA administers two programs under The Social
Security Act--title II (Retirement, Survivors, and Disability
Insurance (RSDI)) and title XVI (Supplemental Security Income (SSI)).
These two programs provide monthly benefit payments of about $25
billion to approximately 49.2 million beneficiaries who are aged,
disabled, or survivors. If beneficiaries cannot manage their own
finances, Congress has authorized SSA to pay the benefits to other
individuals or organizations on their behalf. The SSA calls these
individuals and organizations representative payees (hereinafter
called payees).
Payees` responsibilities include submitting an
annual accounting report to SSA. The SSA uses the data collected
from these reports to determine the continuing suitability of payees,
the continuing need for representative payment, and whether payees
used benefits properly during the 12-month report period. The SSA
staff use a computer program to review the accounting forms and decide
whether the responses are acceptable or need further review and/or
explanation. (Responses requiring further review and/or explanation
are referred to as "exceptions.") If all responses on an
accounting form are acceptable, no further action is necessary.
The SSA has undertaken initiatives to strengthen the
entire annual accounting process. To assist in this effort, SSA requested
that the Office of the Inspector General (OIG) conduct a series of
inspections to review and recommend improvements to the annual accounting
process. This report is one in the series of reports that assess
the risk of misuse of benefits associated with various categories
of payees. Other reports will present data concerning demographics
of payees, demographics of beneficiaries, misuse or questionable
use of benefits by payees, poor performance by payees, and nonresponding
payees. A roll-up report will provide overall recommendations for
improving the accounting process.
We combined data collection from SSA`s computerized
beneficiary data bases and in-person interviews to determine payees` performance.
In September and October 1994, SSA prepared computerized files of
title II and title XVI beneficiaries with payees scheduled to receive
initial accounting forms in October 1994. From these files, we extracted
a sample of 3,010 payee cases for our study. We used all collected
information (e.g., accounting forms, interviews) to describe: (1) payees` experiences
with the accounting review process; and (2) payees` difficulties
in completing the annual accounting form.
FINDINGS
The Accounting Review Process is Neither Effective
Nor Efficient in Identifying Problems
The accounting review process rarely detects poor performance
or misuse and/or questionable use of benefits, and the information
that SSA does collect comes as the result of extensive administrative
effort.
The Felony Question Produces Limited Results
The 703 payees who stated that they had been convicted
of a felony misunderstood the question or believed that it referred
to the beneficiary. Since few payees have ever been convicted
of a felony, it is unlikely that this question will produce significant
results.
The Accounting Review Process Does Not Address
Problems With Titles on Financial Accounts
Information collected during interviews with payees
suggests that many use improperly titled accounts to hold beneficiaries` benefits,
but SSA`s current procedures do not attempt to identify this
problem in most cases. (See page 8.)
CONCLUSION
Problem cases often are not identified through the
accounting review process. The SSA expends extensive administrative
effort to discover that many exceptions are the result of confusion
and misunderstanding rather than actual status changes. Some questions,
such as the felony question, produce virtually no results, while
other questions, such as those about financial account titles, do
not identify the true magnitude of the problem.
Back to top
INTRODUCTION
PURPOSE
This report evaluates the effectiveness and efficiency
of SSAs representative payee accounting review process.
BACKGROUND
Overview of the Representative Payee Program
The SSA administers two programs under The Social
Security Act--title II (RSDI) and title XVI (SSI). These
two programs provide monthly benefit payments of about $25 billion
to approximately 49.2 million beneficiaries and recipients who
are aged, disabled, or survivors.
Approximately 6.6 million beneficiaries, or slightly
more than 13 percent, cannot manage their own finances. If beneficiaries
cannot manage their own finances, Congress has authorized SSA to
pay the benefits to other individuals or organizations on their behalf.
The SSA calls these individuals and organizations representative
payees (hereinafter called payees).
Sections 205(j)(1) and 1631(a)(2) of The Social
Security Act authorize the Commissioner of SSA to appoint payees.
Payees may include, but are not limited to, parents with or without
custody of children, spouses, other relatives, legal guardians,
friends who show strong concern for the beneficiary`s welfare,
and institutions with or without custody of the beneficiary.
Payee Responsibilities
Payees` responsibilities include:
1. frequently
monitoring the beneficiary`s well-being;
2.              notifying
SSA of situations that affect the beneficiary`s entitlement
to or amount of benefits (e.g., work); and
3. informing SSA of
changes
in the payee`s own circumstances that would affect the payee`s
performance.
A major payee responsibility is to submit an annual
accounting form to SSA describing their use of benefits. Payees
receive the booklet, A Guide For Representative Payees,
during the SSA interview which describes a payee`s responsibilities
and the appropriate use of benefits. The booklet includes a worksheet
to record the use of benefits and a sample accounting form. The Jordan Court and the Establishment of the
Annual Accounting Process
Prior to 1983, SSA did not have a mandate to conduct
accountings of funds that payees received on behalf of beneficiaries.
The Agency relied on its own initiative to create an accounting system.
In 1979, Ms. Jeanne Jordan brought a certified class action suit
against SSA challenging how it monitored payees. (Ms. Jordan alleged
that her payee was not using her SSA benefits properly to meet her
needs.) In its 1983 decision, the Jordan Court decided that
payees should be required to give a full accounting of how they spend
and save title II and title XVI benefits on behalf of beneficiaries.
Subsequently, Congress amended The Social Security Act to
require annual accounting of all payees except State mental institutions
participating in the onsite review program.
The SSA, in consultation with the Jordan court,
designed an annual accounting process--including the look and content
of the accounting form--to gather data from payees. The data helps
SSA determine:
1. the continuing suitability of the payee,
2. the continuing need for representative payment,
and
3. whether the payee used benefits properly during
the 12-month report period.
The Annual Accounting Forms
To handle a high volume of annual accounting, SSA developed
standardized accounting forms--the SSA-623 and the SSA-6230. The
SSA-623 asks how payees used the funds for:
1. food and shelter;
2.              other items such as clothing, education, personal items, and
medical and dental expenses; and
3. savings.
The form also asks
payees about:
1. changes in the beneficiary`s
custody;
2. whether the payee or another person controlled the use
of the SSA benefits; and
3.            their own felony convictions during
the previous
12 months.
In July 1990, SSA introduced the SSA-6230 accounting
form for parents and, later, stepparents and grandparents
with custody of minor children receiving title II benefits. These
payees may report
their use of benefits for up to four children on the same
form.
Since parents, stepparents, and grandparents represent the
largest type
of payee category, most title II payees now receive the SSA-6230. The SSA-6230 differs from the SSA-623 primarily in:
(1) the payees` ability to account for up to four children on
the same form; and (2) the wording of the questions on custody and
use of benefits. Also, questions about funds on the SSA-6230 are
more general. Payees report: (1) the expenses for care and support
of the children; and (2) savings.
The Accounting Review Process
Each month, SSA uses its computerized beneficiary data
bases (the Master Beneficiary Record and the Supplemental Security
Record) to identify payees who are to receive annual accounting forms.
The SSA usually schedules payees to receive forms on the anniversary
of the month they were selected to be the payee, although SSA and/or
payees may designate an alternate report period. As a result of this
selection process, SSA sends initial accounting forms to approximately
one-twelfth of all payees each month.
The SSA uses a contractor to mail accounting forms
payees. If payees have not returned accounting forms within
3 months of the first mailing, the contractor mails a second request.
If the payees fail to respond to the second request, SSA staff attempt
to contact payees directly to obtain a completed accounting.
When payees return the mailed accounting requests,
SSA`s Wilkes-Barre Data Operations Center in Pennsylvania completes
the initial screening, data verification, and review of the returned
forms. The staff use a computer program to review the accounting
forms and decide whether the responses are acceptable or need further
review and/or explanation. (Responses requiring further review and/or
explanation are referred to as "exceptions.") If all responses
are acceptable and there are no relevant remarks, no further action
is necessary.
The SSA has undertaken initiatives to strengthen the
entire annual accounting process. To assist in this effort, SSA requested
that the OIG conduct a series of inspections to review and recommend
improvements to the annual accounting process. This report is one
in the series of reports that assess the risk of misuse of benefits
associated with various categories of payees. Other reports will
present data concerning demographics of payees; demographics of beneficiaries;
misuse or questionable use of benefits by payees; poor performance
by payees; the types, frequencies, and causes of exceptions to the
annual accounting forms; and nonresponding payees. A roll-up report
will provide overall recommendations for improving the accounting
process.
Previous Department of Health and Human Services/Office
of the Inspector General (HHS/OIG) Studies
In 1994, the HHS/OIG released two reports on the effectiveness
and efficiency of SSA`s payee accounting process. We interviewed
various SSA staff in headquarters, program service centers, and field
offices to gather their experiences with and impressions of the process.
We also reviewed the process at the Wilkes-Barre Data Operations
Center in Pennsylvania. We found:
the accounting review process may deter, but rarely
detects, misuse of SSA benefits;
some aspects of the process are duplicative, inefficient,
and costly;
the SSA staff are frustrated by large workloads
and the time needed to resolve questionable accounting forms; and
based on our recommendations, SSA increased some
responsibilities for the accounting review process for the Wilkes-Barre
Data Operations Center.
SSA`s Administrative Costs and Initiatives
in Annual Accounting
The cost of annual accounting has almost doubled over
the last 5 years. In Fiscal Year (FY) 1991, SSA spent approximately
$33.2 million to administer the accounting process. For FY 1996,
SSA estimated that it would spend almost $66.0 million for annual
accounting.
To combat rising costs, SSA initiated several activities
to improve the payee accounting process:
The SSA introduced the SSA-6230 accounting form
tailored for parents, stepparents, and grandparents with custody
of minor children who receive title II benefits.
The Omnibus Budget Reconciliation Act of 1990 required
SSA to undertake several initiatives concerning representative
payees. A major initiative was the 1992 implementation of a new
computerized payee data base--the Master Representative Payee File.
It contains information about payees and their beneficiaries, and
SSA can access the data to identify trends in payee activity.
Independent of the OIG`s work, SSA formed the
Quality Improvement Team, an internal advisory group of headquarters
and processing center staff. In 1993, the team analyzed the Wilkes-Barre
Data Operations Center`s processes. The team recommended changes
in the accounting forms, scanning equipment, and processes to reduce
manual workloads and streamline the process.
The SSA also formed an external Representative
Payee Advisory Committee in June 1995. This group is studying
all aspects of the accounting process from payee selection through
monitoring payee performance. The Committee reported its findings
and recommendations to the Commissioner of SSA in November 1996.
METHODOLOGY
We combined data collection from SSA`s computerized
beneficiary data bases and in-person interviews to determine payees` performance.
In September and October 1994, SSA prepared computerized files of
title II and title XVI beneficiaries with payees scheduled to receive
initial accounting forms in October 1994. From these files, we extracted
a sample of 3,010 payee cases for our study. These cases were roughly
divided for:
1. relatives and nonrelatives;
2.            custodial and noncustodial
payees; and
3. title II and title XVI programs.
For our sample cases, we mailed out accounting forms
and, upon their return, determined the type and frequency of exceptions.
In addition, SSA staff attempted to interview every payee as well
as beneficiaries, custodians, and collateral contacts as appropriate
and possible. Interviewers attempted to conduct all interviews face-to-face
and in the respondents` homes. Interviewers used structured guides
during these interviews.
We used the collected information to describe: (1)
payees` experiences with the accounting review process; and (2)
payees` difficulties in completing the annual accounting form.
Appendix B contains a detailed description of our methodology. We
weighted our results to the universe of beneficiaries with payees
scheduled to receive initial accounting forms in October 1994.
This inspection was conducted in accordance with the Quality
Standards for Inspections issued by the President`s
Council on Integrity and Efficiency.
Back to top
FINDINGS
THE
ACCOUNTING REVIEW PROCESS IS NEITHER EFFECTIVE NOR EFFICIENT
IN IDENTIFYING PROBLEMS
The accounting review process is intended to provide
SSA with information about changes in payees` and beneficiaries` status
as well as assess the payees` performance. We found that the
accounting review process does not effectively produce these desired
outcomes and places an undue administrative burden on the Agency.
The SSA`s Current Policies and Procedures
Rarely Detect Poor Performance or Misuse and/or Questionable
Use of Benefits
Prior to conducting any interviews, we asked interviewers
to follow SSA`s current procedures for processing accounting
forms. This included reviewing accounting forms with exceptions and
contacting the payees if necessary. Based on this review alone, we
asked interviewers to determine if problems were indicated.
After all interviews were conducted, we again asked
interviewers to determine if problems were indicated. Based on all
collected information, SSA staff determined that 11,661 cases from
the October 1994 universe of payees scheduled to receive initial
accounting forms exhibited poor performance and 4,454 cases exhibited
misuse and/or questionable use of benefits. Based solely on SSA`s
accounting review process, interviewers identified only 15.0 percent
of these same poor performance cases and 3.3 percent of the
misuse and/or questionable use cases. We found that:
The 39.0 percent of the poor performance cases
and 11.0 percent of the misuse and/or questionable use cases were
associated with accounting forms that had exceptions.
The 29.1 percent of the poor performance cases
and 58.6 percent of the misuse and/or questionable use cases were
associated with accounting forms that had no exceptions. The SSA
does not conduct additional reviews of accounting forms without
exceptions.
The 31.9 percent of the poor performance cases
and 30.5 percent of the misuse and/or questionable use cases were
associated with unreturned accounting forms. Therefore, the lack of
accounting forms often is more significant than returned accounting
forms.
Attempts to Identify Problems Require Significant
Administrative Effort
For accounting forms with exceptions, SSA staff review
the forms and/or contact the payees directly. Based on these reviews
and contacts, we found that many exceptions were the result of payees` confusion
rather than payees` attempts to inform SSA of changes in the
payees` or beneficiaries` status. This confusion drastically
increases the effort SSA must expend to identify each status change.
For example:
The SSA contacted 9,958 payees--52.9 percent of
the payees who claimed that the beneficiaries` had changed
custody during the report period--to learn that the beneficiaries
had not changed custody.
The 75.9 percent of payees who stated that they
did not decide how the benefits were spent or saved actually did
decide how the benefits were used.
The 60,367 accounting forms had remarks, but only
20,650 had remarks from payees who responded to prompts on
the front of the accounting form (e.g., the accounting form asks
payees who claim that they have been convicted of a felony to explain
the conviction on the back of the accounting form). The remaining
39,717 accounting forms had remarks from payees who were not
responding to prompts on the front of the accounting form. Actual
remarks ranged from requests for additional benefits to gratitude
expressed for SSA`s help. One payee even changed the questions
on the front of the accounting form to correspond with what he
wished to answer. This payee also filled the entire back of the
form with remarks about a variety of subjects. It took several
minutes to review this individual form.
Although SSA identifies some situations that might
indicate problems or the need for a new payee, a great deal of additional
work is necessary to achieve the desired result.
Some Exceptions Are Not Detected Automatically
The review process at the Wilkes-Barre Data Operations
Center uses scanning equipment to review the responses given on the
front of the accounting form. The SSA staff must manually review
all responses on the back of the accounting form (e.g., remarks,
accuracy of the signature, relationship information) to determine
if there are any exceptions.
THE
FELONY QUESTION PRODUCES LIMITED RESULTS
Although 703 payees stated that they had been convicted
of a felony during the report period, we found that none actually
had been. Payees often believed the question referred to the beneficiary
or the payees made a mistake. Based on interviews with payees, we
found that 1.0 percent of all payees had ever been convicted
of a felony or a misdemeanor reduced from a felony. Therefore, it
is unlikely that this question would produce significant results.
THE
ACCOUNTING REVIEW PROCESS DOES NOT ADDRESS PROBLEMS WITH TITLES
ON FINANCIAL ACCOUNTS
The accounting review process only checks the accuracy
of the account title if the amount of conserved funds listed is over
$500. Only 9.9 percent of payees who returned accounting forms--8.5
percent of all payees--listed more than $500 in conserved funds.
Therefore, SSA does not check the accuracy of the account titles
for 90.1 percent of payees who returned accounting forms.
During the interviews, we asked payees to provide information
regarding the titles on accounts they used to hold beneficiaries` benefits.
We found that only 13.6 percent maintained benefits in properly entitled
accounts. Approximately 33.8 percent of payees maintained funds in
incorrectly titled financial accounts. The rest either did not use
any account--37.5 percent--or did not provide information regarding
the account title--15.1 percent. Many of the improperly entitled
accounts:
did not have the beneficiary`s name listed;
had individuals other than the payee and beneficiary
listed on the account--provides access to the benefits to persons
other than the payee; or
had the beneficiary`s name listed in a manner
which gave the beneficiary direct access to the account.
Back to top
CONCLUSION
Problem cases often are not identified through the
accounting review process. The SSA expends extensive administrative
effort to discover that many exceptions are the result of confusion
and misunderstanding rather than actual status changes. Some questions,
such as the felony question, produce virtually no results, while
other questions, such as those about financial account titles, do
not identify the true magnitude of the problem.
APPENDIX A
COPIES OF ACCOUNTING FORMS
The following pages contain copies (front and back)
of the SSA-623 and SSA-6230.
(FORMS SSA-623 and SSA-6230 are not available at this
time.
Back to top
APPENDIX
B
DETAILED METHODOLOGY
We combined information from the Social Security Administrations
(SSA) pre-existing computerized data bases with in-person, in-the-home
interviews to provide data on the relative risk of misuse and poor
performance for all categories and types of payees and beneficiaries.
Sample Selection
1. We requested data from SSA on all beneficiaries
with payees from the Master Beneficiary Record (MBR) and the Supplemental
Security Record (SSR). Data included, but was not limited to, beneficiary`s
name; payee`s name, address, and telephone number; payee category
or type; and payment data. We analyzed the universe of payees to
identify characteristics such as payee category, beneficiary type,
and district office code.
2. After preliminary analysis of the universe, we
selected a random sample of SSA district offices. We initially
selected 150 offices from the MBR, but 1 office code was invalid
and 5 offices were outside the continental United States. Therefore,
we used 144 offices for our study.
3. From the computerized files SSA used to produce
the October 1994 annual accounting forms, we selected all beneficiaries records
containing the sampled district office codes. This resulted in
29,155 title II cases and 13,520 title XVI cases.
4. For each of the programs (title II and title XVI),
we grouped the beneficiaries records into five strata according
to type of payee coding. The strata are: (1) parents; (2)
nonparent relatives; (3) institutions; (4) financial institutions,
public officials, and social agencies; and (5) payees coded "other." We
then grouped the records within each stratum by custody code (payee
with or without custody of the beneficiary). The title II records
had two additional strata, one for the "W" payee code
and another for missing or miscellaneous codes. Therefore, we had
12 title II strata and 10 title XVI strata.
5. We randomly selected up to 145 cases from each
of our 22 strata. If there were less than 145 cases in the strata,
we selected the universe of cases. Our final sample included 3,010
cases--1,584 title II cases and 1,426 title XVI cases. The chart
on the following page shows the sample distribution by strata.
TABLE 1: LIST OF 22 SAMPLE STRATA
STRATUM
PROGRAM
PAYEE
IN PAYEES
CUSTODY
SAMPLE
CASES
1
SSI
Parent
Yes
145
2
SSI
Parent
No
145
3
SSI
Other relative
Yes
145
4
SSI
Other relative
No
145
5
SSI
Institution
Yes
145
6
SSI
Institution
No
121
7
SSI
Agency/official
Yes
145
8
SSI
Agency/official
No
145
9
SSI
Other
Yes
145
10
SSI
Other
No
145
11
OASDI
Parent
Yes
144
12
OASDI
Parent
No
145
13
OASDI
Other relative
Yes
145
14
OASDI
Other relative
No
145
15
OASDI
Institution
Yes
145
16
OASDI
Institution
No
34
17
OASDI
Agency/official
Yes
145
18
OASDI
Agency/official
No
145
19
OASDI
Other
Yes
145
20
OASDI
Other
No
145
21
OASDI
Unknown*
(Code="W")
All custody
types
145
22
OASDI
Unknown
(Other codes)
All custody
types
101
Total
3,010
*The SSA assumes that these payees are parents with
custody.
Data Collection
1. We mailed the SSA-623 or SSA-6230 accounting forms
to our sampled payees. For all returned forms, we entered the information
into corresponding data bases and evaluated the data using SSA`s "four-phase" logic
program.
2. We established folders on all sampled payees that
SSA field staff used during the interviews. The folders contained:
(1) the completed SSA-623 or SSA-6230, if received; (2) results
of the four-phase analysis of the accounting form; (3) any exceptions
needing follow-up with the payee; (4) the names, addresses, and
telephone numbers of the payee and beneficiary; and (5) hard copy
data produced at the time of selection from the MBR, SSR, and Master
Representative Payee File.
3. We developed structured discussion guides for
payees, beneficiaries, and custodians based on the SSA-624-F5 (Representative
Payee Evaluation Report). We also developed structured guides for
collateral contacts and a case summary. Collateral contacts would
objectively verify self-reported information given by payees, beneficiaries,
and custodians. Information included, but was not limited to:
a. biographical information about the payee and
beneficiaries;
b. the relationship between the payee and the beneficiary;
c. the relationship between the beneficiary and
the custodian;
d. the beneficiary`s level of satisfaction
with the payee`s performance;
e. from the payee and beneficiary, details about
how benefits were spent and/or saved on behalf of the beneficiary;
f. the extent of record keeping performed by the
payee; and
g. whether the payee is responsible for accounting
or reporting to any other government or private organizations
about the benefits expended.
The case summary allowed interviewers another venue
to analyze and highlight information not captured directly in the
discussion guides. Interviewers often provided their overall professional
impression of each case. In addition, interviewers drew from the
interviews and collected information to determine if benefit misuse
was indicated.
4. We trained SSA staff in nine sessions at five
locations around the country. The training consisted of an introduction
to the study, review of the discussion guides, and role-playing
to identify potential questions about administering the guides.
We also trained more staff by telephone using a condensed version
of the onsite training.
5. The SSA staff--under our direction--conducted
in-person or telephone interviews with payees, beneficiaries, custodians,
and collateral contacts where applicable.
Data Analysis
1. We developed a computerized data entry system
allowing us to record information from the accounting forms and
each of the discussion guides and case summary sheets. If interviewers
were not able to obtain completed forms or interviews, we indicated
why.
2. Once interviewers returned virtually all cases
(3,005 of 3,010 sampled cases as of April 1996), we validated
the data entered into the data bases. We reviewed the data bases
to identify and correct mis-keyed data.
3. Using a computerized statistical software package,
we analyzed the resulting data to identify significant findings.
We determined that the type of payee and custody data may be incorrect
for some cases (see Monitoring Representative Payee Performance:
Assessment of Risk--Demographic Characteristics of Payees, A-09-96-64206).
We continued to analyze data based on the original strata because
it provides the most accurate information about the payees and
beneficiaries whose records currently contain a given type of payee
and custody code combination.
4. We developed weights that we applied to each sampled
case. This allowed us to make projections to the universe of beneficiaries
with payees scheduled to receive an initial accounting form in
October 1994.
Back to top
APPENDIX
C
LIST OF CONTRIBUTORS
This inspection report was prepared by the Office of
Audit in San Francisco under the direction of Scott Patterson, Director,
Division of Evaluations and Technical Services. Project staff included:
Deborah Harvey, Senior Evaluator
Brian Pattison, Senior Evaluator
Alan Stubbs, Senior Evaluator
Nellie Wong, Auditor
Special thanks to Robert Gibbons, Wm. Mark Krushat,
Sc.D., and Linda Moscoe from HHS/OIG for their contributions during
the initial development of this project.
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified